No. 19-123
In
Jw The
~~

Supreme Court
the United
States
~w,irreuuure
~@wirft of
@f ft~re
tlluuuftrer!ll ~ftmftre~
-------------------------- • ---------------------------

SHARONELL FULTON, ET AL.,
Petitioners,
v.

CITY OF PHILADELPHIA, ET AL.,
Respondents.
-------------------------- • --------------------------

On Writ of Certiorari to the
United States Court of Appeals for the
Third Circuit
-------------------------- • --------------------------

BRIEF OF AMICUS CURIAE
NEW CIVIL LIBERTIES ALLIANCE
IN SUPPORT OF PETITIONERS
-------------------------- • --------------------------

PHILIP HAMBURGER
MARK CHENOWETH
KARA ROLLINS
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th Street NW, Suite 450
Washington, DC 20036
(202) 869-5210
Kara.Rollins@NCLA.legal
Counsel for Amicus Curiae
THE LEX GROUPDC

Dated: June 3, 2020

• 1050 Connecticut Avenue, N.W. • Suite 500, #5190 • Washington, D.C. 20036
(202) 955-0001 • (800) 856-4419 • www.thelexgroup.com

i
QUESTIONS PRESENTED
This brief addresses only the first two
questions presented by the petitioners:
1. Whether free exercise plaintiffs can only
succeed by proving a particular type of discrimination
claim namely that the government would allow the
same conduct by someone who held different religious
views as two circuits have held, or whether courts
must consider other evidence that a law is not neutral
and generally applicable, as six circuits have held?
2. Whether Employment Division v. Smith
should be revisited?

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
TABLE OF CONTENTS............................................. ii
TABLE OF AUTHORITIES ...................................... iv
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF THE ARGUMENT ........................... 2
ARGUMENT ............................................................... 3
I.

IF THIS COURT IS UNWILLING TO OVERTURN
SMITH, IT COULD FOLLOW SMITH AND
STILL HOLD PHILADELPHIA S POLICY
UNCONSTITUTIONAL .......................................... 3

II.

NOTWITHSTANDING THE FACIAL EQUALITY
OF PHILADELPHIA S POLICY ON FOSTER
CARE SERVICES, ITS ADMINISTRATIVE
POLICYMAKING PROCESS IS UNEQUAL AND
EVEN PREJUDICED............................................. 5
A. The Inequality of Administrative
Policymaking .............................................. 6
B. Philadelphia's Unequal Administrative
Policymaking ............................................ 13

III. A PROPER REMEDY WOULD BE TO HOLD THE
POLICY UNEQUAL AND THUS
UNCONSTITUTIONAL ........................................ 16
A. Taking Equality Seriously ....................... 16
B. The First Amendment's Text,
Drafting, and Underlying History
Preclude a General Right of
Religious Exemption................................. 19

iii
C. Especially When Administrators Make
Statements Confirming That Their
Policymaking Is Indifferent, Hostile, or
Otherwise Discriminatory, the
Resulting Policy Should Be Held
Unequal and Unconstitutional................. 23
D. There Are Advantages to Holding the
Policy Void Rather Than Carving out
an Exemption ............................................ 25
IV. THIS COURT NEEDS TO CONFRONT THE
RELIGIOUS INEQUALITY OF ADMINISTRATIVE
POLICYMAKING ................................................ 26
CONCLUSION ......................................................... 28

iv
TABLE OF AUTHORITIES
Page(s)
Cases
Employment Div., Dept. of Human
Resources of Ore. v. Smith,
494 U.S. 872 (1990) ....................................... passim
Constitutional Provisions
U.S. Const. amend. I. ........................................ passim
Statutes
55 Pa. Code § 3700.64 ............................................... 14
Phila. Code § 9-1102 ................................................. 14
Phila. Code § 9-1106 ................................................. 14
Other Authorities

Anahad O'Connor, How the Government Supports
Your Junk Food Habit, N.Y. Times (July 19,
2016, 11:21 AM) .................................................... 11
Caroline M. Taylor et al., A review of guidance on
fish consumption in pregnancy: is it fit for
purpose?, 21 Public Health Nutrition (2018) ....... 11
Charles F. James, Documentary History of the
Struggle for Religious Liberty in Virginia
(J.P. Bell Co., Lynchburg, Va., 1900) ................... 21
John Leland, The Writings of the Late Elder John
Leland (L.F. Greene ed., New York, 1845)........... 21
Liza Gross, Flame retardants in consumer
products are linked to health and cognitive
problems, Wash. Post (Apr. 15, 2013) .................. 12

v
Michael W. McConnell, The Origins and
Historical Understanding of Free Exercise of
Religion, 103 Harv. L. Rev. 1409 (1990) .............. 22
Nicholas Quinn Rosenkranz, The Subjects of the
Constitution, 62 Stan. L. Rev. 1209 (2010) .......... 20
Philip Hamburger, A Constitutional Right of
Religious Exemption: An Historical Perspective,
60 Geo. Wash. L. Rev. 915 (1992) ....... 16, 20, 21, 22
Philip Hamburger, Equality and Diversity: The
Eighteenth-Century Debate about Equal
Protection and Equal Civil Rights, 1992 Sup.
Ct. Rev. 295 (1992) ................................................ 21
Philip Hamburger, Exclusion and Equality: How
Exclusion from the Political Process Renders
Religious Liberty Unequal, 90 Notre Dame L.
Rev. 1919 (2015) ............................................ 4, 6, 13
Philip Hamburger, Is Administrative Law
Unlawful? (U. Chicago Press 2014) ........................ 9
Philip Hamburger, Religious Freedom in
Philadelphia, 54 Emory L.J. 1603 (2005) ...... 21, 22
Philip Hamburger, Separation of Church and
State (Harv. U. Press 2002) .................................... 8
Philip Hamburger, The Administrative Threat
(Encounter Books 2017) ........................................ 11
Sheri Fink & Mike Baker, 'It's Just Everywhere

Already:· How Delays in Testing Set Back the

U.S. Coronavirus Response, N.Y. Times (Mar.
10, 2020) ................................................................ 12

1
INTEREST OF AMICUS CURIAE
The New Civil Liberties Alliance (NCLA) is a
nonpartisan, nonprofit civil rights organization and
public-interest law firm. Professor Philip Hamburger
founded NCLA to challenge multiple constitutional
defects in the modern administrative state through
original litigation, amicus curiae briefs, and other
advocacy.1

The "civil liberties" of the organization's name
include rights at least as old as the U.S. Constitution
itself, such as free exercise of religion, due process of
law, and the right to be tried in front of impartial
judges who provide their independent judgments on
the meaning of the law. Yet these selfsame civil rights
are also very contemporary and in dire need of
renewed vindication precisely because the City of
Philadelphia, its administrative agencies such as the
Department of Human Services and the Commission
on Human Relations, and even the courts have
neglected them for so long.
NCLA aims to defend civil liberties primarily
by asserting constitutional constraints on the modern
administrative state. Although Americans still enjoy
the shell of their Republic, a very different sort of
government has developed within it a type, in fact,
that the Constitution was designed to prevent. This
unconstitutional state within the Constitution's
United States is the focus of NCLA's concern.
Petitioners and Intervenor-Respondents consented to the filing
of this brief after being timely notified more than 10 days before
filing. Respondents granted blanket consent on May 7, 2020. No
counsel for a party authored any part of this brief. No one other
than the amicus curiae, its members, or its counsel financed the
preparation or submission of this brief.

1

2
In this instance, NCLA is particularly
disturbed by th e City's and the Commission's
suspending referrals of new children to Catholic
Social Services (CSS) for foster placement. The City's
administrative process and resulting suspension were
inherently unequal and even prejudiced, thus
violating the Free Exercise Clause of the First
Amendment.
Administrative
policymaking
is
institutionally slanted against orthodox or traditional
religion, and thus even when administrative rules or
other decisions appear facially equal, one must worry
that on account of the underlying process, they in fact
discriminate.
SUMMARY OF THE ARGUMENT
Philadelphia is worried about what it considers
CSS's discriminatory attitudes-even before CSS has
discriminated against anybody. See J.A. 171-172. But
this case turns on something else: the discriminatory
attitudes inherent in all administrative decisionmaking and grossly displayed in Philadelphia.
Legislative and administrative lawmaking are
different in kind, and the differences reveal
systematic
discrimination
against
religious
Americans. Administrative rules are made by persons
who are not directly accountable to ordinary
Americans in elections, and because administrative
policymaking is devoted to rationalism and scientism,
it is indifferent and even hostile to orthodox and
traditional religion. As a result, even when
administrative policies are equal on their face, they
are unequal because of the process by which they are
made. Administrative power is a game tilted against
religion.

3
This inequality, even prejudice, is painfully
evident in Philadelphia's administrative process for
making its policy governing foster care services
providers. It therefore should be particularly easy for
this Court to hold that this process denies the free
exercise of religion.
But this is not to say that the petitioners have
a free exercise right to a religious exemption. The
First Amendment both textually and historically
precludes a constitutional right of religious
exemption. The problem here, moreover, is not
exemption, but inequality.
This Court therefore needs to recognize the
inequality of the administrative process for many
religious Americans. And at least where, as here, the
inequality and even prejudice are overt, the Court
should hold the resulting policy unequal and
therefore in violation of the free exercise of religion.
ARGUMENT
I.

IF THIS COURT IS UNWILLING TO OVERTURN
SMITH, IT COULD FOLLOW SMITH AND
STILL
HOLD
PHILADELPHIA S
POLICY
UNCONSTITUTIONAL

Although this Court is being asked to revisit
Employment Div., Dept. of Human Resources of Ore.
v. Smith, 494 U.S. 872 (1990), such a reconsideration
is not the only possible basis for holding
Philadelphia's policy unconstitutional. In Smith, this
Court largely repudiated a free exercise right of
religious exemption and recognized, instead, a free
exercise right to religious equality. That holding
about equality is significant here because
Philadelphia engaged in prejudiced and discriminatory

4
treatment of religious Americans. This Court could
therefore follow Smith by holding Philadelphia's
actions unequal in violation of the Free Exercise
Clause.
Even if the First Amendment guarantees a
right of religious exemption, it also, more
fundamentally, secures Americans in religious
equality. At least, that is, it protects them from
unequal constraints those that discriminate against
them on account of their religion. (See infra Part III)
Thus, whatever one thinks of Smith's rejection of a
right of exemption, that opinion was surely correct in
recognizing that religious Americans at least enjoy
religious equality under the Free Exercise Clause.
In elevating this equality vision of free exercise
and discarding the exemption vision, Smith "rests on
the political logic that religious Americans can protect
themselves from oppression under equal laws by
engaging in politics." Philip Hamburger, Exclusion
and Equality: How Exclusion from the Political
Process Renders Religious Liberty Unequal, 90 Notre
Dame L. Rev. 1919, 1926 (2015). But this expectation
that religious Americans can engage with their
lawmakers does not reflect the current realities of
American lawmaking. Law comes nowadays not so
much in statutes enacted by representative
legislatures as m "policies" dictated by unelected
bureaucrats, and this profusion of administrative
policy creates a profound inequality.
Whereas ordinary Americans can directly elect,
petition, and lobby their representative lawmakers,
they are excluded from choosing administrative
policymakers and therefore can rarely meet them, let
alone bargain with them. And unlike elected

5
lawmakers, who tend to be solicitous of their religious
constituents, administrative policymakers tend to
pursue ideals of rationalism and scientism that are
indifferent and even antagonistic to religion at
least, relatively orthodox or traditional religion. (See
infra Part II.A.)
Accordingly, if the religious equality
guaranteed by the Free Exercise Clause (and
recognized by Smith) is to be taken seriously, one
cannot merely examine whether a law or policy is
facially equal. In addition, one must ask about the
equality of the underlying process by which the policy
was made.
This Court therefore needs to recognize the
inequality inherent in the administrative process by
which Philadelphia instituted its foster care policy.
The policy may seem facially equal, but that is no
comfort because the entire policymaking process is
tilted against petitioners and many other religious
Americans.
II. NOTWITHSTANDING THE FACIAL EQUALITY OF
PHILADELPHIA S POLICY ON FOSTER CARE
SERVICES, ITS ADMINISTRATIVE POLICYMAKING
PROCESS IS UNEQUAL AND EVEN PREJUDICED
Philadelphia left its policy decision whether to
terminate foster placement through CSS to the City's
Department of Human Services an administrative
agency and this administrative avenue for
policymaking raises questions about institutionalized
inequality and even prejudice. When administrative
policymaking displaces lawmaking by an elected
representative body, the process of making policy
becomes a tilted game against religion or at least

6

some types of religion. Thus, although Philadelphia's
policy may appear flat or equal on its surface, the
administrative decisionmaking producing and
effectuating the policy is slanted, rendering the
superficially equal policy in fact unequal.
A.

The Inequality
Policymaking

of

Administrative

The inequality of administrative policymaking
what really is administrative lawmaking comes in
at least two layers. First, administrative power leaves
ordinary Americans, including religious Americans,
with no opportunity to vote for or against their
administrative lawmakers, thus excluding them from
their constitutionally guaranteed freedom of electing
the persons who make the laws that bind them. See
Hamburger, Exclusion and Equality, supra. Second,
this exclusion from the policymaking process is
especially consequential for religious Americans
because administrative power and its authority based
in expertise are expressions of rationalism and
scientism not necessarily reason and science, but
the institutional elevation of such things and
administrative power is thus institutionally
predisposed, even prejudiced, against religion,
especially relatively orthodox or traditional religion.
See id.
The overall result is that administrative
governance is much less responsive to the religious
needs of many Americans than elective legislative
governance. Although the administrative exclusion of
Americans from the rule- and exemption-making
process affects Americans of all sorts, it shifts such
power to administrative bodies with not necessarily
personal, but certainly institutional commitments

7
that are distinctively indifferent and even hostile to
much religion. Administrative governance thus
leaves
many
religious
Americans
in
a
disadvantageous position when attempting to
persuade their administrative lawmakers to avoid
burdening their religious beliefs.
The difference between representative and
administrative policymaking is painfully clear. When
a legislature makes laws, the policies that bear down
on religion are made by persons who feel responsive
to religious constituents and who are therefore
usually open to considering exemptions or generally
less severe laws. In contrast, when policies come from
administrative agencies, they are made by persons
who are chosen or fired by the executive, not the
public, and so are less responsive than legislators to
the distinctive needs of a diverse people. They are
expected, moreover, to maintain an ethos of scientism
and rationality, which however valuable for some
purposes, is indifferent and sometimes even
antagonistic to relatively orthodox or traditional
religion, let alone the particular needs of local
religious communities.
The danger for religious Americans from the
shift of policymaking out of representative
legislatures is evident from the recent COVID-19related restrictions that specifically target churches.
These restrictions have almost always been imposed
through administrative power--whether exercised by
state or local agencies or by state governors advised
by, and then interpreted and applied by their
administrative experts.
This administrative indifference or hostility to
at least relatively orthodox or traditional religion

8
reflects class distinctions between the rulemaking
class and those to whom they dictate policy.
Individuals who set the policies of administrative
agencies tend to enjoy a higher level of education than
those governed by their decisions. Although progress
through educational institutions can be valuable, it
tends to come with a disdain and sometimes even
antipathy to relatively orthodox or traditional
religion. Accordingly, when members of the
knowledge class the class of persons who have or
identify with an elevated degree of education are
given policy making authority over their fellow
citizens, it should be no surprise that they often act
with the attitudes of their class.
In other words, the tendency of administrative
decision-making to be discriminatory against
relatively orthodox or traditional religion is the
natural and predictable result of shifting power from
elected representatives in a legislature to unelected
administrators who usually are relatively well
educated. Again, this is not to knock education.
Rather, the point is that administrative agencies tend
to be run by members of a class whose attitudes are
different from those of the population at large, and
whose attitudes about religion are apt to result in
discrimination.
These discriminatory attitudes, incidentally,
can range from a generic distaste for religion to a
religious aversion for relatively orthodox or
traditional religion. And either way, such attitudes
often focus on the allegedly retrograde character of
Catholicism. See, e.g., Philip Hamburger, Separation
of Church and State 193-251 (Harv. U. Press 2002).

9
That religious and class antagonisms are
embedded in administrative power should be no
surprise, as such animosities did much to spur its
establishment and growth. Fearing that the bulk of
Americans would not support progressive policies,
Woodrow Wilson in 1887 urged shifting legislative
power to administrative bodies. He explained that
"the reformer is bewildered" by the need to persuade
"a voting majority of several million heads." Philip
Hamburger, Is Administrative Law Unlawful? 371
(U. Chicago Press 2014). He was particularly worried
about the nation's diversity, which meant that the
reformer needed to influence "the mind, not of
Americans of the older stocks only, but also of
Irishmen, of Germans, of Negroes." Id. It was a point
he elaborated at length. 2 Although Wilson was
distinctively racist, he gave expression to a widely felt
disdain among the knowledge class for the unwashed
masses that increasingly formed the electorate. And
his concern about persuading "Irishmen" (in contrast
to Americans of the "older stocks") remains a potent
reminder that an elevated disgust for Catholicism
was a motivating factor in the development of
administrative power in the United States. In other
words, the disempowering of religious minorities was
not a bug, but a feature.

2

Wilson also wrote: "The bulk of mankind is rigidly
unphilosophical, and nowadays the bulk of mankind votes." And
"where is this unphilosophical bulk of mankind more
multifarious in its composition than in the United States?"
Accordingly, "[i]n order to ge t a footing for new doctrine, one
must influence minds cast in every mold of race, minds
inheriting every bias of environment, warped by the histories of
a score of different nations, warmed or chilled, closed or
expanded by almost every climate of the glo be." Id. at 372.

10
Even if these vicious motivations were merely
historical a charitable assumption that the City of
Philadelphia seems determined to disprove the
structural differences between representative and
administrative power make the latter systematically
disadvantageous for religious minorities.
Of course, the removal of legislative
power from the representatives of a
diverse people has implications for
minorities. Leaving aside Wilson's overt
racism, the problem is the relocation of
lawmaking power a further step away
from the people and into the hands of a
relatively homogenized class. Even
when exercised with solicitude for
minorities, it is a sort of power exercised
from above, and those who dominate the
administrative state have always been if
not white men, then at least members of
the knowledge class.
It therefore should be no surprise
that administrative power comes with
costs for the classes and attachments
that are more apt to find expression
through representative government. In
contrast to the power exercised by
elected
members
of
Congress,
administrative power comes with little
accountability to or even sympathy
for local, regional, religious, and other
distinctive communities. Individually,
administrators may be concerned about
all Americans, but their power is
structured in a way designed to cut off
the political demands with which, in a

11
representative system of government,
local and other distinctive communities
can protect themselves.
Philip Hamburger, The Administrative Threat 56-57
(Encounter Books 2017).
Lawmaking has been shifted away from elected
representatives, from whom religious minorities can
expect a sympathetic hearing and accommodation, to
administrators, who are not representative of the
people, who are not personally accountable to them in
elections, and who qualify for their positions by virtue
of being members of a class defined by education and
thus typically unsympathetic or even hostile to
traditional religion.
None of this is to say that government should
disregard education, science, or any resulting expertise,
for agency expertise can be valuable, especially if
shared with elected representatives and not used to
justify an "off-road" mode of legislating. Nor is it to
say that reason and religion should be considered at
war with one another, for that is far from the truth
and all too often 1s an unreasonable "rationalist"
canard against religion. Above all, it should not be
supposed that the rationalism and scientism of
administrative policymaking assures that the
resulting policy is always really rational or scientific. 3
See, e.g. , Anahad O'Connor, How the Government Supports
Your Junk Food Habit, N.Y. Times (July 19, 2016, 11:21 AM),
https://bit.ly/OConnorNYT07192016 (discussing administrative
food and agricultural policies which for decades encouraged
Americans to eat unhealthy foods); Caroline M. Taylor et al., A
review of guidance on fish consumption in pregnancy: is it fit for
purpose?, 21 Public Health Nutrition 2149 2159 (2018)
available at https://bit.ly/Tayloretal2018 (noting that a 2001
U.S. Food and Drug Administration advisory notice to avoid

3

12
Rather than suggest any of these things, the
point is that administrators are not representative of
the people or accountable to them at elections, and
that administrative power comes with a vision of
rationality and scientism that, whatever its merits, is
indifferent if not antagonistic to orthodox and
traditional religion. The resulting policymaking
process sharply disadvantages many religious
minorities.
Again, a simple comparison reveals the
prejudice embedded in the administrative perversion
of the political process. Under a republican form of
government, in which laws are made by an elected
representative legislature, religious Americans,
even those with unpopular beliefs, can almost
always get a respectful and even sympathetic
conversation about their needs as minorities, and
very often can persuade lawmakers to defeat a harsh
law or at least secure an exemption. But under
the anti-republican administrative version of
government, religious Americans must struggle to be
heard by administrative policymakers, can expect
contemptuous treatment, and face institutional
predatory fish and limit consumption of all other fish failed to
recognize the importance of omega-3 fatty acids for unborn
children and led to an unintended reduction of omega-3 intake
across the population); Liza Gross, Flame retardants in
consumer products are linked to health and cognitive problems,
Wash. Post (Apr. 15, 2013), http://wapo.st/17f7jEU?tid=ss_tw
(discussing changes in administrative policy on flame retardants

which ignored their effect on children's cognitive development);
Sheri Fink & Mike Baker, 1t's Just Everywhere Already:· How

Delays in Testing Set Back the U.S. Coronavirus Response, N.Y.
Times (Mar. 10, 2020), https://bit.ly/FinkNYT03102020
(discussing administrative policy on new drugs and devices
which delayed the availability of COVID-19 tests).

13
indifference and even outright hostility. See
Hamburger, Exclusion and Equality, supra, at 193942.
Religious liberty thus comes with an
unexpected slant. Courts blithely assume that
America offers a flat or even legal landscape a broad
and equitable surface on which all Americans can
enjoy rights equally, regardless of their religion. But
the underlying inequality of the administrative rule,
exemption, and other policy making process tilts the
entire game, so that many apparently equal policies
actually lean against religion.
This unequal process hollows out the religious
equality guaranteed by the Free Exercise Clause.
Even where the courts protect against facially
unequal laws, the underlying inequality of the
lawmaking process is apt to render laws unequal and
oppressive. Put another way, the inequality built into
the administrative version of the political process
renders many apparently equal administrative
policies unequal as to religious minorities. Thus, even
when an administrative policy seems equal on its
surface, it remains necessary to ask whether it
disadvantages some religious Americans because of
the relative indifference or even hostility of
administrative policymakers to orthodox or
traditional religion.
B. Philadelphia's Unequal Administrative
Policymaking

The City of Philadelphia's administrative
process in this case is deeply discriminatory. The City
left its Department of Human Services to make the
policy terminating the placement of children through

14
CSS.4 The Department then displayed precisely the
sort of indifference and prejudice one might expect
from administrative process. The City of Philadelphia
is thus an abject but not unusual example of the
religious inequality inherent in administrative
policymaking.
An essential element of republican government
and of religious liberty is to have policies adopted in
laws made by a representative body that is elected by,
and thus responsive to, the people, including religious
minorities. Instead, Philadelphia imposes its foster
care services policy through an administrative body
that is unelected and thus unresponsive, and even is
institutionally prejudiced against orthodox or
traditional religion in this case, expressly
prejudiced against the religion of petitioners.
The City of Philadelphia initially claimed that CSS violated the
City's Fair Practices Ordinance (the "Ordinance"), Phila. Code
§ 9-1106 (2016), as memorialized in the City's Professional
Services Contract. See Pet. App. 149a-152a (March 16 letter).
But that ordinance does not apply to CSS, and thus not only the
refusal to grant exemptions but also, more basically, the
underlying policy to stop referrals to CSS and terminate CSS's
contract comes from the agency. To be sure, the Fair Practices
Ordinance prohibits "discriminat[ion] based on" characteristics
including marital status, familial status, mental disability, and
sexual orientation in "public accommodation[s]." Phila. Code§ 91106 (2016). But Philadelphia has never treated foster care as a
"public accommodation" under the Ordinance. J.A. 150-151, 183185, 305-316. On the contrary, the City permits and even expects
private agencies to take into account the marital and familial
status of potential foster parents. See Pet'r's Br. 7-8; 55 Pa. Code
§ 3700.64; J.A. 98-100, 236-238. Indeed, although the Ordinance
applies to "the City, its departments, boards and commissions,"
Phila. Code § 9-1102(1)(w), Philadelphia does not apply the
Ordinance to its own foster care operations, see J.A. 150-151,
which regularly consider disability and race when making foster
placements. J.A. 305-316.
4

15
The Commissioner of the Department of
Human Services gratuitously offered her opinion that
the petitioner should follow "the teachings of Pope
Francis" and said that "times have changed,"
"attitudes have changed," and it is "not 100 years
ago." J.A. 182, 365-366. It hardly needs to be observed
that it is not the role of government to decide which
religious beliefs are right and wrong, to condemn
views that do not keep up with majority sentiment, or
to judge which opinions are out of date. But the
underlying problem is much more serious than the
Commissioner's personal bias against orthodox and
traditional Catholicism.
Far more serious is the systemic indifference
and even prejudice built into administrative
policymaking. This danger that administrative
policymaking is systemically tilted against orthodox
or traditional religion needs to be recognized
regardless of whether it comes, as here, with
prejudiced expressions.
Thus, even if one were t o shut one's ears to the
Commissioner's comments, one must take note of
Philadelphia's refusal even to consider an exemption
for the petitions. Pet. App. 165a-172a. Although
petitioners did not ask for an exemption, Philadelphia
gratuitously declared "the Commissioner has no
intention of granting an exception." Pet. App. 168a.
This is exactly the sort of antagonism that is
ingrained in the administrative policymaking process
and that deprives even facially equal policies of their
claim to equality. However flat the surface of the law,
the entire game is tilted.

16
III. A PROPER REMEDY WOULD BE TO HOLD THE
POLICY UNEQUAL AND THUS UNCONSTITUTIONAL
Notwithstanding that this Court is being asked
to overturn Smith, it could just as well follow Smith
holding that the administrative process by which
Philadelphia made its decision is discriminatory and
unequal and therefore unconstitutional. This case,
put simply, could be decided on the basis of inequality
rather than exemption.
A. Taking Equality Seriously

Whatever one's view about a constitutional
right of religious exemption, it is important not to let
the dispute about that question distract attention
from the constitutional right to religious equality. The
constitutional foundation for a general right of
exemption will be discussed below, but at the outset
it should be undisputed that unequal religious
constraints whether against a particular type of
religion or against religion as a whole deny the free
exercise of religion.5
Smith substantially questioned whether there
is a free exercise right of religious exemption. Indeed,
as will be seen, the First Amendment's text and
history clearly preclude a constitutional right of
The most common demand made by religious minorities in the
late eighteenth century was for equality both against
establishment privileges and more fundamentally against
discriminatory constraints. See Philip Hamburger, A
Constitutional Right of Religious Exemption: An Historical
Perspective, 60 Geo. Wash. L. Rev. 915, 939, 946-47 (1992). As to
the point about religion as a whole, note that the First
Amendment speaks generally of "religion" rather than "a
religion." See U.S. Const. amend. I. The government thereby
bars law prohibiting the free exercise of not only a particular
religion but also of religion in general.
5

17
exemption. But that is all the more reason to
take seriously the amendment's bar against
discriminatory religious constraints and Smith's
reiteration of that prohibition.
Critics of Smith have suggested that if the First
Amendment does not protect a right of exemption, it
means nothing. But if it does not protect at least
against inequality, then the First Amendment really
will have been eviscerated. The Free Exercise Clause
was adopted in response to a long history of
inequality, and there is no more pervasive inequality
than to have law- or policy-making power turned over
to unelected administrators with institutional
commitments at odds with one's religion.
Tellingly, Justice Scalia concluded his opinion
in Smith by noting that, even without a right of
religious exemption, religious Americans can always
pursue a political remedy prototypically by
appealing to their elected representatives to include
exemptions or other relief when they enact potentially
burdensome laws.6 That may be true enough where
the laws are made by the elected legislature. But here
the policy maker is an administrator, who is
unelected, and who (quite apart from her personal
prejudice) is selected from a class that tends to be

Smith, 494 U.S. at 890 (''Values that are protected against
government interference through enshrinement in the Bill of
Rights are not thereby banished from the political process. Just
as a society that believes in the negative protection accorded to
the press by the First Amendment is likely to enact laws that
affirmatively foster the dissemination of the printed word, so
also a society that believes in the negative protection accorded to
religious belief can be expected to be solicitous of that value in
its legislation as well.").
6

18
indifferent and even
traditional religion.

adverse

to

orthodox

or

Unequal constraints are most clearly and
emphatically barred by the Free Exercise Clause, and
this problem is inescapably evident in Philadelphia's
administrative process. This Court therefore needs to
recognize
the
systematic
discrimination
of
administrative power against relatively orthodox or
traditional religion.
A candid recognition of the inequality would
have the salutary effect of limiting the stakes in a
bruising controversy over a right of exemption.
Though (as will be seen below) a constitutional right
of exemption has no foundation in the Constitution,
the demands for such a right have increased in past
decades and not by accident. There has been a
massive shift of policymaking power from
representatives to administrators during recent
decades, and this transfer has left traditional and
orthodox religious Americans subject to ever less
sympathetic responses from those who exercise
legislative power over them. Whereas they once could
persuade their elected servants to accommodate their
needs, they now must deal with unaccommodating
administrative masters.
And this expansion of administrative
lawmaking explains much of the rising demand for a
constitutional right of exemption. Lawmaking
nowadays
is
more
administrative
than
representative. And unlike representatives, who tend
to be sympathetic to the religions of their
constituents, the new sort of lawmakers tend to begin
the conversation (as in Philadelphia) with "no
intention of granting an exception." Pet. App. 168a. It

19
is therefore unsurprising that the call for exemption
or other accommodation tends to come in response to
administrative lawmaking.
Accordingly, before this Court moves toward a
right of exemption that is unjustified by
constitutional text or history, the Court should first
live up to the free exercise right to equality. This
Court has a duty to recognize the religious
discrimination
inherent
in
administrative
lawmaking, and in so doing, it will alleviate the
growing pressure for a right of exemption.
B. The First Amendment's Text, Drafting,
and Underlying History Preclude a
General Right of Religious Exemption
Far from authorizing a constitutional right of
religious exemption, the First Amendment expressly
precludes any such right. To be precise, the
amendment makes clear that that if a law prohibits
the free exercise of religion, Congress had no power to
make the law in the first place. The First Amendment
thus leaves no room for judicially created exemptions;
instead, it requires the courts to hold any law that
prohibits the free exercise of religion to be unlawful
and void ab initio. And in addition to this clarity of
text, the absence of a general right of exemption is
backed up by the drafting and underlying history.
The Free Exercise Clause can be understood to
prohibit a range of things certainly laws imposing
unequal or discriminatory constraints and probably
also other things, such as laws interfering with
religious association but whatever its reach, the one
thing the clause clearly does not guarantee is a right
of exemption.

20
The text itself plainly bars any constitutional
right of exemption. The First Amendment states:
"Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof." U.S. Const. amend. I. Accordingly,
if a statute prohibits the free exercise of religion,
Congress had no power in the first place to make the
law. Such a statute (or if severable, the relevant
section) is simply unlawful and void. There is thus no
room under the First Amendment for a right of
exemption.7
This conclusion is also clear from the drafting
debates, where no one no one at all is recorded as
even having discussed a general right of exemption.
See Hamburger, A Constitutional Right of Religious
Exemption, supra, at 927-28.
Nor should any of this be a surprise, as the vast
majority of minority religious groups in the late
eighteenth century were devoted to seeking equal
rights, not exemption. Religious minorities at the
time of the Revolution were often worried about
special constraints on them on account of their
religion. As late as the 1770s, Baptists in Virginia
were imprisoned merely for meeting and preaching.
Nicholas Quinn Rosenkranz, The Subjects of the Constitution,
62 Stan. L. Rev. 1209, 1266 (2010) (''If Congress violates the Free
Exercise Clause by making a law prohibiting the free exercise of
religion, then it must be that the violation happens when
Congress makes such a law"); Hamburger, A Constitutional
Right of Religious Exemption, supra, at 937 . ("[T]he First
Amendment ... begins, 'Congress shall make no law.' Rather
than suppose that civil laws will in some respects prohibit the
free exercise of religion and that exemptions will be necessary,
the First Amendment assumes Congress can avoid enacting laws
that prohibit free exercise").
7

21
John Leland, The Writings of the Late Elder John
Leland 106-07 (L.F. Greene ed., New York, 1845);
Charles F. James, Documentary History of the
Struggle for Religious Liberty in Virginia 29, 212-14
(J.P. Bell Co., Lynchburg, Va., 1900). This seemed
especially outrageous at a time when Americans were
demanding equal rights in their struggle against
Britain. Religious minorities in America therefore
tended to demand equal rights, both against
establishment privileges and more fundamentally
against discriminatory constraints. See Hamburger,
A Constitutional Right of Religious Exemption, supra,
at 942; Philip Hamburger, Equality and Diversity:
The Eighteenth-Century Debate about Equal
Protection and Equal Civil Rights, 1992 Sup. Ct. Rev.
295, 336-67 (1992).
Their opponents often suggested that in
seeking religious liberty, religious minorities really
were seeking a general right of exemption--this being
an effective way to smear the minorities. See
Hamburger, A Constitutional Right of Religious
Exemption, supra, at 941. Tellingly, the leaders of
religious minorities repeatedly disclaimed any
ambition for a general right of exemption and insisted
that what they wanted was equality. See id. at 942;
see also Hamburger, Equality and Diversity, supra, at
336-67.
The only denomination in the 1770s and 1780s
that consistently favored a general right of exemption
was the Society of Friends, and the only time they
made a concerted effort to interpret a constitutional
document to guarantee such a right was in 1775 in
Pennsylvania. Philip Hamburger, Religious Freedom

22
in Philadelphia, 54 Emory L.J. 1603 (2005).8
Unsurprisingly, they were resoundingly defeated.
Pennsylvanians joined mass marches to protest the
Quaker interpretation, Id. at 1615, and they then
drafted the Pennsylvania Constitution to clarify its
rejection of any general right of exemption. Id. at
1623-36. Thus, even in Pennsylvania the Quakers'
home base they could not win. A general right of
exemption was a nonstarter.
It has been suggested that the conditions
recited in many state constitutional guarantees of
religious liberty reveal that those guarantees
extended to a general right of exemption at least
where there was no threat to the public peace. See
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion, 103 Harv.
L. Rev. 1409 (1990). From this perspective, Americans
could claim a religious liberty from equal laws. But
this gets the history exactly backward. See
Hamburger, A Constitutional Right of Religious
Exemption, supra, at 918-26. The conditions in some
state guarantees cut off constitutional claims of
exemption from law by reducing religious liberty to a
conditional toleration. Id. As commentators
repeatedly made clear, if one violated the underlying
condition, one forfeited one's religious liberty. Id. at
922-23. In contrast, the First Amendment included no
conditions. Rather than adopt the merely conditional
toleration so common in state constitutions, the First
The Mennonites sometimes favored a general religious
exemption, but not always, and perhaps especially not in
alignment with the Quakers. Their piety, moreover, was of a sort
that led them to eschew much public engagement in petitioning,
and they therefore tended to avoid taking a public position. See
id. at 1605-06, n. 6; 1621-22.

8

23
Amendment embraced the inalienable character of
religious liberty by stating it unconditionally. It is
thus utterly anti-textual and ahistorical to discern
the meaning of the unconditional federal right from
the conditional state versions.
In addition to these observations about the
text, drafting, and underlying history, one could point
to the obvious practical impediments to a free exercise
right of exemption. One could, for example, worry that
such a right would create moral hazard (something
the founders understood) or that such a right would
leave judges with dangerous discretion to define its
boundaries. But it should be enough here to notice
that the text, by its very words, precludes any such
right, that the debates did not even discuss any
general right of exemption, and that all of this makes
sense in light of what religious minorities had been
arguing in the 1770s and 1780s.
C. Especially When Administrators Make
Statements Confirming That Their
Policymaking Is Indifferent, Hostile, or
Otherwise Discriminatory, the Resulting
Policy Should Be Held Unequal and
Unconstitutional
This Court should recognize the inequality that
is ingrained in administrative power by providing a
remedy for religious Americans who are burdened by
it in violation of their religious beliefs not because
they have a free exercise right of exemption, but
because of the inequality of the administrative
policymaking process.
It should be particularly easy to reach this
conclusion when as in this case an administrator
or agency makes statements that corroborate that its

24
policymaking process is indifferent, hostile, or
otherwise discriminatory. For example, when an
administrator candidly expresses religious prejudice
and bluntly refuses even to consider relief for
religious Americans, it should not be difficult for a
court to recognize the inequality that is ingrained in
administrative power and to hold the resulting policy
unequal in violation of the free exercise of religion.
The petitioners did not specifically ask for an
exemption as Philadelphia froze referrals to CSS
without even the favor of a rule. Nonetheless, the
Commissioner (as noted above) revealed her religious
prejudice, and the City went out of its way to declare
categorically that "the Commissioner has no intention
of granting an exception." Pet. App. 168a.
These
circumstances,
in
which
the
administrative agency cuts off any opportunity for a
religious minority to explore the possibility of relief,
leave no doubt about the indifference or hostility of
the administrative process. The inequality of that
process should therefore be recognized by holding the
resulting policy unequal and unconstitutional under
the First Amendment's guarantee of the free exercise
of religion.
Of course, when a member of a legislature
expresses religious prejudice, it is not obvious that
her invidious attitudes should be attributed to the
legislature as a whole. But this case involves an
administrative agency headed by a single
Commissioner. In such circumstances, the prejudice
of that supervising administrator must be taken as
the prejudice of the agency and its policymaking
process.

25
The point is not that a facially equal policy
should
be
considered
unconstitutionally
discriminatory solely on account of bad motive, but
rather that the Commissioner's discriminatory
expressions confirm the underlying inequality
inherent in administrative policymaking. This
slanted process by itself should be enough to render
the policy unequal to require that it be held void at
the behest of any person adversely affected in his
religion. But at the very least, when, as here, there is
evidence
corroborating
that
Philadelphia's
administrative policymaking is indifferent, hostile, or
otherwise discriminatory, this Court should recognize
the inequality of the administrative policymaking
process and hold the policy unequal and void.
D. There Are Advantages to Holding the
Policy Void Rather Than Carving out an
Exemption
It should not be difficult for this Court to hold
Philadelphia's administrative policy unequal and
thus void because the only other affected placement
organization caved in, and the policy thus currently
only affects one such organization, the petitioners.
See Pet. App. 21a. The result in this case will
therefore not be substantially different from if this
Court were to hold the petitioners exempt. But over
the long term, there is an advantage beyond that of
following the text of the First Amendment in
holding administrative policies religiously unequal
and therefore void, as opposed to finding an
exemption.
When the judicial response to free-exercise
violations focuses on exemption, administrators can
pursue regulatory projects that burden religion

26
without fear of more than an exemption that is,
without fear for their larger projects. Such
administrators thus have every reason to regulate as
harshly as they wish, reckoning that they will
sometimes get away with it and that they will never
suffer more than a carve out for some plaintiffs. The
judiciary's exemption response thus invites
administrative severity and increases the demands
for exemptions.
In contrast, if the judges were to recognize the
inequality of administrative policymaking and hold
the resulting policies void when challenged by
affected plaintiffs, administrators would have some
skin in the game. They would think twice about the
policies they imposed through their discriminatory
process, thereby reducing the tensions with religious
Americans.
IV. THIS COURT NEEDS
RELIGIOUS INEQUALITY
POLICYMAKING

TO
OF

CONFRONT THE
ADMINISTRATIVE

This Court needs to address the discriminatory
tendencies of administrative policymaking for a host
of reasons. It has already been hinted (in supra Part
III.A) that if this Court fails to correct this inequality,
it will face a constitutionally unsupportable question
of exemption that will be unmanageable and divisive.
In addition, the Court must consider the seriousness
of the administrative inequality and the Court's role
in creating it.
Systematic discrimination against religious
Americans or against those who are relatively
orthodox or traditional in their beliefs has no place in
America regardless of whether in the substance of a
policy or in the process by which it is made. In Smith,

27
this Court recognized the importance of legislative
lawmaking for religious Americans, but failed to
address the reality that nowadays most ''law" is made
by administrative agencies, which are not as
responsive to religious Americans indeed, which are
often callously indifferent and even hostile to many
religious Americans. This is a fundamental
inequality, which is so deeply ingrained in a pervasive
mode of power that this Court may hesitate to
confront the problem. But the ubiquity of
administrative policymaking, and the magnitude of
the resulting discrimination, require this Court to act.
If it is to defend the religious liberty of Americans, it
must recognize the grim realities faced by religious
Americans at least those with relatively orthodox or
traditional views.
It is often assumed that religion, especially in
its traditional modes, is declining in America, and
that this reflects the salutary rise of rationality and
science in other words, that religion is shrinking as
a natural result of its own failure to comport with
realities of the modern world. This thesis is
deceptively incomplete, because the retreat of
churches and organized religion has been
substantially accelerated by law not least by the rise
of administrative lawmaking. Over the past century,
the damage done to religious liberty has eroded the
cultural fabric of the nation in ways that may be
permanent and that at least will take decades to
redress. The subjugation of Americans to
policymakers who are tilted against much religion
thus deprives them of their freedom in ways that are
of profound consequence.
It is especially important that this Court take
action because the problem is not confined to

28
Philadelphia. Across the nation, relatively orthodox
or traditional Americans again and again face the
indifference and even hostility of administrative
policymaking, in violation of their free exercise right
not to be subjected to discriminatory constraints.
Philadelphia's policy with respect to foster care
placements is thus just the tip of the iceberg.
Judges have a special responsibility to address
the administrative discrimination because they gave
it constitutional legitimacy and thus, in a sense,
established it. Having elevated administrative power
as an acceptable mode of governance, the judges are
partly responsible for its inherent inequality. It is
thus partly the judges who have subjected religious
Americans to a profoundly unsympathetic and even
hostile class of lawmakers, who act not as servants
but as masters, and who treat those whom they
consider retrograde with scarcely veiled contempt.
The judiciary therefore needs to recognize its
responsibility for the current situation, in which
religious Americans cry out for exemptions from their
administrative rulers from the rulemaking class
but have little hope because these rulemakers tend to
be rigidly indifferent and even biased against them.
This discriminatory process is a disgrace, and the
Court needs to address it.
CONCLUSION
The shift of policymaking to administrative
bodies is profoundly incompatible with religious
liberty. It places many religious Americans at a
permanent and systemic disadvantage, and as a
result they are repeatedly deprived of their religious
freedom.

29
Recognizing that something is deeply awry, but
not fully understanding the depth of the
constitutional distortions arrayed against them,
religious Americans increasingly have turned to the
courts for a general right of exemption a right that
the First Amendment never authorized and, in fact,
textually precludes. Thus, one constitutional
distortion has provoked demands for another. Having
legitimized an illicit mode of power that undercuts the
equality of religious Americans, judges are being
asked to cure the problem with an illicit general right
of exemption.
For all of this, judges are significantly to blame.
They
permitted
the
initial
administrative
unconstitutionality, and now must what wonder what
to do with the demands for a corrective doctrine on
exemption that is also unconstitutional.
The solution must be at least a recognition of
the inequality inherent in administrative lawmaking.
Equality is the right of all Americans, and a religious
freedom from discrimination is a foundation of the
First Amendment. Accordingly, even when a city such
as Philadelphia is pursing equality, it cannot act
through a process that is profoundly unequal for
religious Americans at least those with relatively
orthodox or traditional beliefs.
The administrative lawmaking process was
designed to exclude relatively orthodox or
traditionally religious Americans, not least Catholics.
And even if one could ignore the historical and
continuing prejudices, there remains the structural
problem. Administrative lawmaking displaces
representative lawmaking substituting indifference
and even hostility for solicitude.

30
Being partly responsible, this Court has a
special duty if only on account of its reputation to
clean up the mess. It needs to recognize the profound
inequality that runs through all administrative
lawmaking an inequality that bears down on many
religious Americans in ways that leave them stunned
and struggling, wondering what happened to their
freedom and equality.
The
reversed.

decision

below

should

therefore

be

Respectfully submitted,
PHILIP HAMBURGER
MARK CHENOWETH
KARA ROLLINS
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
Kara.Rollins@NCLA.legal
Counsel for Amicus Curiae
June 3, 2020

